                                                                       Office               Hotline

  Office of Inspector General                                          202.692.2900
                                                                       peacecorps.gov/OIG
                                                                       OIG Reports
                                                                                            202.692.2915 ‫ ׀‬800.233.5874
                                                                                            Online Reporting Tool
                                                                                            OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          May 21, 2014

Subject:       Final Report on the Program Evaluation of Peace Corps/Ecuador (IG-14-03-E)

Transmitted for your information is our final report on the Program Evaluation of Peace
Corps/Ecuador.

Management concurred with seven recommendations and did not concur with one
recommendation. All eight recommendations will remain open pending confirmation from the
chief compliance officer that the documentation identified in management’s response has been
received. In its response, management described actions it is taking or intends to take to address
the issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the agency has taken these actions or that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities.

Our comments, which are in the report as Appendix E, address these matters. Please respond
with documentation to close the remaining open recommendations within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Evaluation Jim O’Keefe at 202.692.2904. Please accept our thanks for your cooperation and
assistance in our review.

Attachment

cc:     Jacklyn Dao, White House Liaison
        Bill Rubin, General Counsel
        Carlos Torres, Associate Director, Global Operations
        Nina Favor, Acting Regional Director, Inter-America and the Pacific Operations
        Alexis Vaughn, Country Director, PC/Ecuador
        Greg Jacobs, Director of Programming and Training, PC/Ecuador
        Brian Riley, Chief of Operations, Inter-America and the Pacific Operations
        Amy Johnson, Chief of Program and Training, Inter-America and the Pacific Operations
        Patricia Barkle, Deputy Chief Compliance Officer
        Ecuador Country Desk
   Peace Corps
   Office of Inspector General




PC/Ecuador Volunteer Britany Nunez-Saraco and counterpart on Flag Day




                           Flag of Ecuador




     Final Program Evaluation Report:
           Peace Corps/Ecuador
                IG-14-03-E

                                                              May 2014
                                      EXECUTIVE SUMMARY
BACKGROUND
More than 5,700 Volunteers have served in Peace Corps/Ecuador (hereafter “the post”) since
1962, making it one of the agency’s oldest country programs. There are four projects:
community health (CH), natural resource conservation (NRC), youth and families (YF), and
teaching English as a foreign language (TEFL). At the time of our visit, 161 Volunteers were
supported by 39 permanent staff positions. The post’s fiscal year 2013 budget was $3.1 million.1

WHAT WE FOUND
Many aspects of post operations reflect that of a high performing post with a strong Volunteer
support structure. Projects have clear and well established site development procedures that
identify sites where Volunteers can achieve their project objectives. Site development is well
documented and includes multiple staff visits before site determinations are made and during the
Volunteer’s service. The post has applied the Focus In/Train Up initiative (FITU) in all four
projects; project frameworks for CH and YF have been finalized and frameworks for NRC and
TEFL were in progress at the time of our visit.2 While there were collaborative working
relationships with project partners, the post had not maintained active project advisory
committees (PAC) with host government or local partners to support project design and
assessment. Additionally, some Volunteers were not working with the counterparts identified on
their project memorandum of understanding (MOU), complicating training opportunities.

Training programs were generally effective in preparing Volunteers for productive work.
However, some Volunteers did not find language training to be sufficient or well-structured and
technical training for NRC business Volunteers needs to be enhanced. Additionally, the role of
the program managers (PM) in pre-service training (PST) was not clearly defined, which created
some misunderstanding and dysfunction between program and training staff.

Staff was responsive to Volunteers during emergencies. When crimes or security issues occur,
Volunteers were quickly and competently supported. However, we found that the U.S. Embassy
regional security officer (RSO) was not familiar with the Peace Corps and Department of State’s
MOU that describes technical and procedural support for the security of Peace Corps operations
abroad.3 Some site locator forms did not have sufficient detail to locate Volunteer residences.
Additionally, the Volunteer Advisory Committee (VAC) was raising and disbursing funds to
support community projects in violation of Peace Corps policy.

RECOMMENDATIONS IN BRIEF
Our report contains eight recommendations, which, if implemented, should strengthen post
operations and correct the deficiencies detailed in the accompanying report.

1
  This amount does not include salaries, benefits, and related costs of the post’s U.S direct hire staff and other costs
the agency has determined should be centrally-budgeted.
2
  FITU seeks to focus on a limited number of highly effective projects designed to maximize the skills of generalist
Volunteers with limited expertise and/or work experience.
3
  On May 11, 2012 the Peace Corps and the Department of State Bureau of Diplomatic Security (DOS/DS) signed
an MOU that established support by DOS/DS for the security of Peace Corps operations abroad. 


Final Program Evaluation Report: Peace Corps/Ecuador                                                                       i
                                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................................... i 

HOST COUNTRY BACKGROUND ......................................................................................................1 

PEACE CORPS PROGRAM BACKGROUND........................................................................................1 

EVALUATION RESULTS ....................................................................................................................2 
          PROGRAMMING ................................................................................................................................................ 2

          TRAINING ......................................................................................................................................................... 6

          VOLUNTEER SUPPORT .................................................................................................................................... 10

          MANAGEMENT CONTROLS ............................................................................................................................. 14


LIST OF RECOMMENDATIONS .......................................................................................................17 

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY.............................................................18 

APPENDIX B: INTERVIEWS CONDUCTED ......................................................................................19 

APPENDIX C: LIST OF ACRONYMS ................................................................................................22 

APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY REPORT ...........................................23 

APPENDIX E: OIG COMMENTS .....................................................................................................31 

APPENDIX F: PROGRAM EVALUATION COMPLETION AND OIG CONTACT................................32 
                           HOST COUNTRY BACKGROUND
The Republic of Ecuador, slightly smaller than the state of Nevada, is located in South America
to the west of Peru and south of Columbia and includes the Galapagos Islands. The country’s
varied natural environment and climate create a unique biodiversity. The western coastal region
borders the Pacific Ocean, and the Andes Mountains bisect the center of Ecuador, separating the
Amazon region to the east. The country’s climate and geography makes it vulnerable to volcanic
activity, landslides, floods, and earthquakes.

The region making up present day Ecuador was part of the Inca Empire, which later was
conquered by the Spanish in 1534. The various territories, including what is now Ecuador,
gained independence from the Spanish between 1819 and 1822, and in 1830 the republic of
Ecuador was formally established. Ecuador’s government is a constitutional republic.
Democratically-elected President Rafael Correa assumed office in 2007, and was most recently
reelected for a third term in February 2013. A new constitution (Ecuador’s 20th) was passed in
2008, which restructured some of the government ministries, among other reforms.

The country’s population of 15.4 million is ethnically mixed, including indigenous, mestizo,
Afro-Ecuadorians, and citizens of European descent. Spanish is the official language but
indigenous groups also speak other languages including Kichwa.4 Roman Catholic is the
religious denomination of the majority of the population. The country is divided into 24
provincial regions. Sixty-seven percent of the population lives in urban areas, with coastal
Guayaquil and Quito in the central highlands as the largest cities.

Ecuador is listed as “high human development” and ranks 89th out of 186 countries in the 2013
United Nations Human Development Report.5 Indigenous, mixed-race, and rural populations are
the most impacted by poverty and income inequality. Its economy is primarily based on
petroleum and agricultural production. Following a banking crisis in 2000, the country adopted
the U.S. dollar as its legal tender, which stabilized the economy and fostered economic growth.



                   PEACE CORPS PROGRAM BACKGROUND
The Peace Corps Ecuador program began in 1962 at the request of the Ecuadorian government.
More than 6,100 Volunteers have served since the program began, making it one of the oldest
continuously operating Peace Corps programs. Throughout its long history Volunteers have
worked in various programmatic areas across the entire country. The Ecuador program currently
includes four projects:


4
 The Ecuadorian dialect of Quechua.
5
 The United Nations Human Development Report publishes an annual Human Development Index (HDI). The HDI
provides a composite measure of three basic dimensions of human development: health, education and income.
Countries receive a ranking that ranges from “very high human development” to “low human development” based
on related data.


Final Program Evaluation Report: Peace Corps/Ecuador                                                      1
          Community Health
         Volunteers are placed in communities to work with women’s organizations, schools,
         youth groups, and other local health promoters. Volunteers address food security and
         nutrition issues, and promote good hygiene practices and safe water consumption. Certain
         Volunteers in the CH sector focus their activities on HIV/AIDS mitigation and to reduce
         risky sexual behaviors.

          Natural Resource Conservation
         Volunteers work with community-based organizations, public institutions, and non-
         governmental organizations to promote the sustainable use of natural resources and help
         organizations establish or improve environmentally friendly businesses. Some Volunteers
         are designated as business advisors to work with their counterparts to identify and
         promote environmentally sound income generating activities and improve overall
         business practices.

          Youth and Families
         Volunteers partner with local governmental and non-governmental organizations to
         support youth and families in marginalized neighborhoods by providing capacity-
         building training to aid youth in developing life and vocational skills. Volunteers also
         work with communities to engage youth as active citizens and build community support
         for youth development.

          Teaching English as a Foreign Language
         Ecuador’s newest project initiated in 2011 works closely with the Ecuadorian Ministry of
         Education to place Volunteers in high schools where they co-teach English classes and
         work with teachers to improve their skills and develop new language teaching resources.
         Volunteers also implement afterschool activities and may work with their communities
         on other development projects.

At the onset of this evaluation, 161 Volunteers were serving in Ecuador. The last Office of
Inspector General (OIG) evaluation was conducted in 2007. The post’s fiscal year 2013 budget
was $3.1 million.6 At the time of the evaluation the post had 39 permanent staff positions.


                                     EVALUATION RESULTS
PROGRAMMING

The evaluation assessed the extent to which the post has developed and implemented programs
intended to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:




6
 This amount does not include the salaries, benefits, and related cost of U.S Direct Hires assigned to post and other
costs the agency has determined should be centrally-budgeted.


Final Program Evaluation Report: Peace Corps/Ecuador                                                                    2
        The coordination between the Peace Corps and the host country in determining
         development priorities and Peace Corps program areas;
        Whether post is meeting its project objectives;
        Counterpart selection and quality of counterpart relationships with Volunteers;
        Site development policies and practices.

We determined through our evaluation that the post has implemented effective programming. In
reviewing project objectives, site development, and host country coordination we found no
significant areas of concern that would necessitate action by the post. A discussion of several
aspects of strong program management, as well as areas the post should consider to further
strengthen the program, follows.

Project Objectives. The post has actively applied the agency’s FITU initiative and voiced its
appreciation of the structured approach and resources provided as staff updated project plans and
related objectives. Program staff worked with Volunteers and counterparts to select appropriate
sector indicators and to finalize project frameworks.7 The post received support from Peace
Corps headquarters staff throughout this process. The project frameworks for CH and YF have
been finalized and the other two frameworks for NRC and TEFL were making good progress at
the time of our visit.

Although all the projects are appropriately applying FITU initiatives, we found that project
frameworks still contain a large number of indicators. Should the project focus remain
widespread, the overall impact of the projects may be reduced. The frameworks for CH and YF
each have over 40 indicators and those for NRC and TEFL have over 30.

There are several factors that led to the large number of sector indicators. Staff reported that with
the closing of the agricultural project, some of the food security indicators were rolled into the
CH project. Additionally, the post previously received Volunteers with specialized skills to work
with disabled students, so the YF project has maintained these specific indicators until those
Volunteers complete their service. Post staff is aware of the challenge of training Volunteers to
work in activities spanning a large number of indicators and it recognized the need to monitor
and analyze which indicators Volunteers are working in, and consider further streamlining the
projects.

Site Development. All projects have established robust site development procedures to identify
sites where Volunteers can achieve their project objectives. Site development is well documented
and includes two visits conducted by staff before final site determinations are made. Staff
maintain electronic site history files, which are referenced when considering prospective sites.
Ninety-one percent of Volunteers we interviewed selected “above average” or “very satisfied”
ratings with their sites.

While the site development process is thorough and generally effective, all the projects could
benefit from having a more targeted and data driven approach to identify sites that have a greater
need, such as less-served communities or schools away from the large urban areas. Volunteers in
7
 As part of its Focus In/Train Up activities, the agency is developing standardized indicators that posts will use to
monitor and evaluate projects.


Final Program Evaluation Report: Peace Corps/Ecuador                                                                    3
the TEFL sector in particular reported that the program would be more effective if the post
explored opportunities to serve such schools and communities. The site development process
starts with a formal application from a community or organization and some PMs may not be
taking additional steps to identify communities with the greatest needs. The CH project had a
practical approach to developing sites by accessing data to identify areas that had a higher
HIV/AIDS prevalence. Post leadership understood that it could take additional steps in site
identification and encouraged PMs to use data and information developed with project partners
to identify communities in need.

Host Country Coordination. Peace Corps staff has worked to develop a collaborative
relationship with Ecuadorian project partners. The post recently signed an MOU with the
Ministry of Education for the TEFL project and it was in the process of signing an additional
MOU with the Ministry of Health. The post maintains positive working relationships with
provincial, municipal, and local governments and has developed strong partnerships with non-
profit organizations. We found that Volunteers often increased their impact beyond their host
communities by leveraging these partnerships to jointly organize regional teacher conferences
and HIV/AIDS awareness campaigns.

While the post has strong programming elements, the evaluation uncovered two aspects of
programming that require management attention: PAC development and counterpart
identification. The remainder of this section provides more information about these topics.

The post had not maintained active PACs for any of its projects.

The Peace Corps Programming and Training Guidance: Project Design and Evaluation, states
that “PAC is the 'voice of key project stakeholders' that helps the Peace Corps ensure that it
develops credible, realistic and responsive project plans and training programs. The guidance
states that PACs should be established for each new project and should remain active throughout
the life of a project. Furthermore, the guidance states “This committee shares responsibility for
the design, evaluation, and revision of the project.”

The post staff reported regularly engaging with project partners in a variety of ways but not
through regular, formalized PAC meetings. Previously, the post had not allocated funds to hold
PAC meetings, but indicated it was planning to specifically allocate funds for this purpose in
fiscal year 2014. PACs could be a valuable forum to provide strategic direction and secure
support and host partner engagement for the projects. As previously discussed, some projects
have over 40 indicators; suggestions from the PACs could assist the post in further focusing
project activities. Additionally, PACs could provide advice to program managers to identify
communities in Ecuador with the greatest needs that would most benefit from receiving a
Volunteer.

               We recommend:

                  1. That the post develop and maintain Project Advisory
                     Committees for each of its projects.




Final Program Evaluation Report: Peace Corps/Ecuador                                             4
Volunteers worked more closely with other community members or partner agency staff than
with the counterparts identified on their project MOUs.

According to Peace Corps Programming and Training Guidance “enthusiastic and dedicated
work partners are often the most important factor in determining both Volunteer satisfaction and
success.” The Peace Corps’ Characteristics and Strategies of a High Performing Post: Post
Management Resource Guide emphasizes the importance of counterpart relationships by
recommending that staff work with partner agencies to identify counterparts. Important aspects
in the identification of counterparts are that “parameters for the counterpart selection [are] clear
and understood by the organization or community” and the prospective counterpart is well
matched and interested in working with the Volunteer. The guidance also notes that not having a
productive counterpart relationship “can compromise a Volunteer’s chances for a satisfying and
successful work experience.”

The post’s programming guidance requires that site development include “an in-depth several
hours long visit with at least several community members and counterpart agency employees.”
The guidance requires that “a local counterpart has been identified and shows commitment to
work with the PCV [Peace Corps Volunteer].” According to the post’s site development process,
before placing a Volunteer at a site, PMs select a primary counterpart for each Volunteer that is
identified in a formal request by the community or organization.

Some Volunteers we interviewed were not working with counterparts originally identified during
the site development process but instead worked with other community members. Volunteers
reported that their official counterparts were often too busy or did not have responsibilities where
they were engaged in community or classroom-level activities alongside the Volunteers.
Therefore, Volunteers developed relationships with other community members that could work
with them more regularly and directly.

During site development, PMs often identify additional community members who could also
support the Volunteers’ work; however, these individuals are not specifically named in the
MOU. The staff reported that it is important to establish the MOU with the higher level official,
as they are more likely to remain in that position for the duration of the Volunteer’s service
whereas the roles of other community members may change. As a result, the initial training for
counterparts during PST usually includes only the official counterpart instead of the community
member(s) who the Volunteer will work with more regularly over the course of the service.

While it is important that MOUs are established at the highest levels of the partner agency and
with an individual that has the authority to enter into such an agreement, there are practical
benefits to listing in the MOU the other individuals who will work directly with the Volunteer.
This would help define the role of other community members active in the project. Additionally,
Volunteers could more easily justify bringing the community member(s) they work with
regularly to training events rather than the official counterpart listed in the MOU.




Final Program Evaluation Report: Peace Corps/Ecuador                                                5
                  We Recommend:

                       2. That the post modify its site development process to
                          identify additional community members the Volunteer
                          is expected to work with and, where appropriate,
                          include these individuals in training and conferences.


TRAINING

Another objective of the post evaluation is to answer the question, “Does training prepare
Volunteers for Peace Corps service?” To answer this question we considered such factors as
training adequacy and planning and development of the training life cycle.

The evaluation determined that the training program in Ecuador is generally effective at helping
Volunteers prepare for service and work productively at their sites. Each project’s program and
training specialist (PTS), who supports the Volunteers during their service, remains on-site for
the duration of PST to deliver technical training sessions and establish working relationships
with the trainees. The post has continued to strengthen its training program and at the time of our
visit was in the process of incorporating the new FITU training sessions into all its training
events. The majority of classes are held at a training center with all Volunteers housed nearby
with host families. Staff and Volunteers have found the sessions to be beneficial; however,
trainers have struggled to fit all the required sessions into a tightly packed training schedule and
include important technical or Ecuador-specific training sessions. To deliver all the FITU-
mandated sessions and provide the necessary country specific training, the post was planning to
budget for an additional week of training in the next PST.

Even though staff faced some difficulties incorporating the FITU sessions into the PST program,
the post’s training effectiveness was not impacted. Overall, we found that Volunteers were
satisfied with the cross-cultural, safety and security, medical/health training, as well as with the
in-service training (IST) that takes place throughout a Volunteer’s service.

The following tables summarize the post’s training events and Volunteers’ perceptions on the
effectiveness of their training.

                           Table 1: Volunteer Perceptions of Training Effectiveness
                             Training                       Percent of Volunteers Who           Average
                                                            Rated Training Favorably8           Rating
             PST:
               Local Languagea                                           34%                       3.2
               Cross-Culturala                                           72%                       3.9
               Safety and Securitya                                      88%                       4.4
               Medical/Healtha                                           78%                       4.0

8
  Volunteer interviews were conducted using a standardized interview questionnaire, and Volunteers were asked to
rate many items on a five-point scale (1 = not effective, 3 = average effective, 5 = very effective). For the purposes
of the data analysis, Volunteer ratings of “4” and “5” are considered favorable.


Final Program Evaluation Report: Peace Corps/Ecuador                                                                     6
             Technicala                                               47%                      3.3
           3-Month ISTb                                               58%                      3.6
           12-Month ISTc                                              71%                      3.8
         Source: OIG interviews.
         a
           N = 32, bN = 24, cN = 17 (Volunteers interviewed were at different points in their service and had not
         yet participated in all the training sessions.)

Trainee Assessment. The post has developed a comprehensive trainee assessment package that
records each trainee’s status and progress during the 11-week training program for all
competencies covered during PST including: safety, health, language, site-visits, cross-culture,
professionalism, and the host family experience. The assessment includes pre-tests and post-tests
with both written and interview components. The results from these assessments are used to
determine if trainees are meeting expectations and determine who may require additional support
from staff.

Other Specialized Trainings. Volunteers appreciated and benefited from additional trainings
provided by the post on specific topic areas including: program design and management (PDM)
workshop, recycled art workshops, and HIV/AIDS training for CH Volunteers. Volunteers stated
that the PDM and other training were effective and they were able to apply what they learned in
their communities.

Volunteer Technical Exchange. The post has implemented an innovative program that allows
Volunteers to share skills and learn from each other through technical exchange visits to other
Volunteer work sites. Under the technical exchange program, Volunteers apply for funding to
pay transportation costs for another Volunteer to visit and provide technical assistance on a topic
of interest. The receiving community supports housing and food needs for the visiting Volunteer.
These exchanges frequently occur between Volunteers working on different projects, offering
rich opportunities for cross-sectoral support. Along with the technical support delivered to host
Volunteers and their communities, the Volunteers leading technical exchange sessions were
provided an opportunity to improve training delivery skills. Sixteen of the Volunteers we
interviewed had participated in a technical exchange visit, either as trainers or hosts, and 15 rated
the experience favorably.

Although training programs were rated by Volunteers as generally effective, the evaluation
uncovered some areas that require management attention, particularly related to PST language
training, and the technical training provided to the business Volunteers in the NRC project.
Additionally, the overall training process and effectiveness could be strengthened by more
clearly defining the role of program managers during training. The remainder of this section
provides more information about these topics.

Volunteers did not find their language training to be sufficient or well-structured.

The Peace Corps Act states that Volunteers will not be assigned to their sites “unless at the time
of such assignment [the Volunteer] possesses such reasonable proficiency as his assignment
requires in speaking the language of the country or area to which he is assigned.” The ability to
speak the language of their host community is often the basis for a Volunteer’s success in



Final Program Evaluation Report: Peace Corps/Ecuador                                                                7
accomplishing all three of the Peace Corps’ goals. A working knowledge of a nationally or
regionally spoken language is also essential to the personal safety and well-being of Volunteers.

The post’s Welcome Book for Volunteers explains other important aspects of language ability:
       As a Peace Corps Volunteer, you will find that language skills are key to personal and professional
       satisfaction during your service. These skills are critical to your job performance, they help you integrate
       into your community, and they can ease your personal adaptation to the new surroundings. Therefore,
       language training is at the heart of the training program.

All Volunteers are provided language training during PST. While the Volunteers ratings for
language training sessions indicated they generally appreciated the quality of language training
provided, they identified some areas of improvement:

       “During PST, I felt like the language training always took second or third place to all the other categories,
       culture, safety security, technical, and it was disappointing. I felt like it should be every morning three to
       four hours, and it wasn't like that.”

       “Came with advanced [Spanish]…They did not know how to give us the sessions we needed; I wanted an
       advanced lesson, tired of playing Jeopardy for hours.”

       “All the words they told me not to say, they say here (the coastal area of Ecuador). I'm not sure if what they
       taught was more of a sierra than coastal Spanish… coastal slang, I didn't learn anything about it. The only
       coastal teacher… teaches beginner Spanish, but the teachers are from the sierra. The classes are mixed
       coastal and sierra.”

As demonstrated by the following chart, the number of hours specifically dedicated towards
language training was less than 34 percent of total training hours and slightly fewer than
technical training hours.

                          Table 2: PST Training Session Distribution in FY 2012
                 Training                        CH/YF                            NRC/TEFL
                                         Hours            Percent            Hours       Percent
          Language                        107              33%                114         34%
          Technical                       125               38%               125          37%
          Cross-Cultural                   28                9%                32          10%
          Diversity                        8                 2%                8            2%
          Medical/Health                   24                7%                24           7%
          Safety and Security              30                9%                30           9%
          Administrative                   5                 2%                3            1%
                       Totals:            327              100%               336         100%
         Source: PC/Ecuador Training Status Report 2012

Furthermore, the ratio of trainees to facilitators is high. While one may assume the six facilitators
(five of which are new to Peace Corps) brought on to teach 30 trainees would lead to a classroom
ratio of five to one, the reality is often different. Because trainees’ language can vary drastically,
the language and cross cultural coordinator often must decide between assigning trainees of
varying levels to one facilitator, or allowing unequal groups of trainees. This problem becomes
even more difficult when several trainees must also receive language training in Kichwa.



Final Program Evaluation Report: Peace Corps/Ecuador                                                                    8
Only 34 percent of the 32 Volunteers who responded to our survey question rated pre-service
language training favorably. Volunteers reported that language ability was one of the challenges
to integrating into their communities. Volunteers who struggle to learn and use the local
language are often less integrated into host community life, which can impact their work
productivity and satisfaction with service, or increase their vulnerability to crime. An increase in
language training hours could also allow trainers to incorporate more regional language
differences and to better cater to the needs of advanced speakers.

               We recommend:

                    3. That the post increase the number of language hours
                       provided during pre-service training and review the
                       teaching methodology to address regional language
                       differences and the needs of advanced Spanish
                       speakers.


Technical training did not sufficiently prepare the business development Volunteers working
in the natural resource conservation project.

The Peace Corps Manual section (MS) 201 “Eligibility and Standards for Peace Corps
Volunteer Service” states that by the end of training a trainee must demonstrate technical
competence, which is defined as “proficiency in the technical skills needed to carry out the
assignment.”

The post provided 125 hours of technical training to NRC Volunteers during the 2012 PST. None
of the interviewed business development Volunteers working in the NRC project gave a
favorable rating to the effectiveness of the business related technical training. Volunteers
explained why they were disappointed with the business instruction and information provided:

       “We don't need to be trained on how to do business, we needed to be trained on how the business
       world works in Ecuador.”

       “They really didn't talk about business, focused more on environmental education.”

The program and training staff were aware that the business training sessions needed to be
improved. Since the NRC programming staff had limited experience in the business sector, the
post was planning on engaging a Peace Corps Volunteer leader (PCVL) to review sessions and
help strengthen the business training that is provided.

The post would benefit from additional training guidance from headquarters specialists and input
by experienced Volunteers already working in the NRC sector. More effective technical training
sessions could better prepare Volunteers for working in the Ecuadorian business development
context and help them more quickly identify and launch appropriate activities in the initial
months of work on their projects.




Final Program Evaluation Report: Peace Corps/Ecuador                                                     9
               We recommend:

                    4. That the country director, training manager, and
                       programming staff members develop a strategy and
                       plan to improve business technical training and seek
                       headquarters technical support as necessary.

The role of program managers during PST was not clearly defined.

The Peace Corps Programming and Training Guidance: Management and Implementation,
states:

       Programming drives training, and training informs programming. Programming and training staff need to
       work together to build and maintain quality programming and training. Programming and training staff are
       often physically separated from each other and because their perspectives are different, sometimes
       opportunities for effective teamwork are lost, and training may become disconnected from programming.

Both programming and training staff expressed some concerns regarding misunderstandings over
the role and involvement of PMs during PST which created some dysfunction in training
delivery. Staffing changes in key positions likely contributed towards the uncertainty regarding
the appropriate role of PMs during training. The director of programming and training (DPT)
position had been vacant for three months when the 2013 training program took place. The DPT
is the single position that performs oversight and supervises both the programming and training
staff. Additionally, in fiscal year 2013 a new training manager was hired. While each project’s
PTS was heavily involved in on-site training throughout the PST program, it is also crucial that
Volunteers develop a relationship with the PMs who will serve as a primary point of contact for
project-related support during service. Post leadership was aware that the roles and relationships
of program and training staff needed clarification and at the time of our visit had organized staff
development sessions to improve relationships.

               We recommend:

                    5. That the country director clearly define the role of the
                       program managers during training events and develop
                       a plan for pre-service training planning and
                       communication by programming and training staff.

VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question, “Has post provided adequate
support and oversight to Volunteers?” To determine this, we assessed factors such as staff-
Volunteer communications; the project and status report process; medical support; safety and
security support including staff visits to Volunteer work sites, the Emergency Action Plan
(EAP), and the handling of crime incidents; and the adequacy of the Volunteer living allowance.

In general, we determined through our evaluation that post has developed a strong Volunteer
support structure. Post staff understood its support roles and responsibilities and was prepared to


Final Program Evaluation Report: Peace Corps/Ecuador                                                         10
support Volunteers. Volunteers feel well supported by all post staff and described them as
responsive to their needs and issues, both programmatic and administrative. During emergencies
or when crimes or security issues have occurred, staff quickly responded to and supported
Volunteers. Volunteers spoke appreciatively of the work of the safety and security coordinator
(SSC), who they describe as proactive and effective. Volunteers were generally satisfied with the
quality of their health care. Post senior staff, with involvement of OHS headquarters, had
recently responded to concerns raised by Volunteers related to medical unit customer service,
which may be reflected in the lower ratings in Volunteer perception of the effectiveness of
medical unit support (see Table 3).

The post has established a robust Volunteer support program through comprehensive site visits
and timely, targeted responses to Volunteer communications. Some PMs have incorporated
coaching methodologies to guide regular, substantive communication with Volunteers about
their service and progress on projects. This coaching-style approach is based on the Volunteers
and PMs communicating regularly in structured sessions to review progress and constraints and
identify and act with strategies and solutions to the challenges encountered during service.

In reviewing staff-Volunteer communications, Volunteer performance report feedback, site
visits, PCVL program, Volunteer allowances, whereabouts reporting policy, and crime incident
response, we found no significant areas of concern that would necessitate action by the post.
Many aspects of the post’s support to Volunteers were examples of a well-organized and
administered country program. A discussion of several aspects of the post’s strong Volunteer
support program management, as well as areas the post should consider to further strengthen the
program, follows.

Staff-Volunteer Communications. The evaluation determined that there was productive, open
communication between Volunteers and staff. Staff was generally aware of Volunteer needs and
concerns. The Volunteers we interviewed stated that staff was responsive and timely in assisting
with the issues they raised.

The post used a variety of methods to reach Volunteers and communicate important information,
including text messages, emails, and phone calls, as Volunteers have cell phones and frequent
access to the Internet. Volunteers appreciated the availability of staff, including the
administrative and support staff, and their genuine interest in and support of their work. Along
with one-on-one contact with individual Volunteers, examples of the feedback mechanisms used
to gather Volunteer input include pre- and in-service training evaluations and communication
from the VAC.9




9
 The VAC is a group of elected Volunteer representatives that discuss issues with Peace Corps staff and help
develop solutions.


Final Program Evaluation Report: Peace Corps/Ecuador                                                           11
The following table demonstrates the strength of the post’s Volunteer support system:

                Table 3: Volunteer Perception of Effectiveness of Staff Support10
                        Support Area                Percent of             Average Rating
                                                 Volunteers Rating          for Support
                                                  “Above Average
                                                 Support” or Better
                 Leadership                            93%                        4.6
                 Programming & Training                83%                        4.4
                 Safety and Security                   94%                        4.5
                 Medical                               67%                        3.9
                 Administrative                        80%                        4.2
                 Source: OIG interviews.

Volunteer Performance Report Feedback. Staff provides regular, timely, and substantive
feedback to Volunteers Report Forms (VRF). Volunteers were pleased with the relevant and
specific feedback provided by PMs and support staff. Volunteers who had submitted their reports
considered the staff’s VRF feedback helpful in fulfilling project goals: 78 percent (25 of 32) of
interviewed Volunteers rated the feedback quality as above average or better (4.2 average).11

Site Visits. The staff conducts thorough, comprehensive site visits that may include observations
at the Volunteer’s work site and classroom, conversations with counterparts, and substantive
visits with host families. In advance of the site visit, programming staff communicate with the
Volunteers to plan the itinerary, determine what topics need to be covered, and ensure the visit
meets their needs. Volunteers interviewed stated that they had received an adequate number of
site visits, and 85 percent rated the effectiveness of the visits as “above average” or better (4.2
average). After the site visit, the staff document what occurred at the work site and provide
feedback or follow-up as necessary.

Regional Office. The post has established a regional office in Guayaquil in partnership with a
locally established non-profit organization that provides additional support to Volunteers in
surrounding sites. The CH program manager works from this office along with one PTS.
Additionally, the Peace Corps medical officers (PCMO) routinely visit the regional office to
conduct medical consultations with Volunteers using the clinic rooms provided by the partner
organization. Volunteers also use this space to conduct meetings and training events in support
of their projects.

Volunteer Committees. The post has a number of active committees through which Volunteers
provide support to each other. Volunteers and staff acknowledged the value of Volunteer-led
groups and committees that provide targeted support to Volunteers on a variety of issues and
concerns. Volunteers appreciated the post-authorized site visits made by Volunteer committee
members, often in the first weeks after arrival at their work site. The following table summarizes
these committees.

10
   Leadership was derived from the CD score. Programming & Training was derived by averaging the scores of the
DPT, PMs, PAs, and training manager. Safety and Security was derived from the SSC’s score. Medical was derived
by averaging the scores of the PCMOs. Administrative was derived from the DMO’s score.
11
   At the time of the evaluation fieldwork not all Volunteers had been required to submit their VRF.


Final Program Evaluation Report: Peace Corps/Ecuador                                                        12
                                     Table 4: Volunteer Committees
           Committee Name                                       Description
                                        Enhances productive problem solving and communication
                  VAC
                                        between Volunteers and staff.
          Peer Support Network          Provides quality support that enhances the well-being and
                 (PSN)                  effectiveness of the Volunteers.
                                        Provides a support space for gay, lesbian, bi-sexual and
             SPECQTRUM                  trans-gendered Volunteers to meet and talk about common
                                        needs, problems and other issues.

                 FREE                   Supports individuals of color and other minority Volunteers
   Source: PC/Ecuador Handbook; for FREE: member description.

Whereabouts Policy Reporting. Almost all the Volunteers we interviewed stated that they
report their travel away from their site to the post “always” or “most of the time.” Some
acknowledged that they had forgotten to do so or did not do so to avoid using vacation time.

The post has identified specific areas of the country as “off-limits” to Volunteers. These areas
either have the potential for serious natural disaster, including volcanic eruption, or are where
narcotics trafficking may occur, such as near the Colombia border or along some coastal areas.
Volunteers are restricted from any travel to those areas. While we determined that most
Volunteers understand the rationale for these restrictions and adhere to the policies, some
Volunteers nonetheless travel to coastal resort areas that are in the no-travel zone.

During our visit to the post the country director (CD) indicated that he was aware of whereabouts
and off-limit policy violations. Among other actions to address these issues, he initiated a review
of the off-limit restriction for one of the coastal areas that was within a zone with current
Volunteer sites and did not appear to pose a security or personal safety risk. He also had post
security staff and the regional Peace Corps security officer review the security status of the
coastal border region bordering Colombia, and he confirmed the need to maintain the off-limit
policy for that region. Based on the attention directed to these issues we are not making a
recommendation, but we encourage the post to continue to review off-limit areas and fully
communicate the rationale for such decisions to Volunteers.

Crime Incident Response. The post has developed and maintains robust safety and security
procedures and is led by an experienced SSC who has the respect and trust of the Volunteers.
Volunteers we interviewed cited specific examples when the SSC quickly and competently
intervened in response to a safety or security incident. The SSC is supported by an assistant who
is integral to maintaining communication with Volunteers, up-to-date whereabouts status, and
other records.

Emergency Preparedness. The post’s Emergency Action Plan is regularly reviewed and
updated. The Volunteers we interviewed were aware of procedures to follow in the event of an
emergency and knew the location of their consolidation points. The post has organized and
maintains Volunteer emergency cluster coordinators who help keep the Volunteers informed of
pertinent information in the event of an emergency. The post’s duty officer (DO) system is



Final Program Evaluation Report: Peace Corps/Ecuador                                                  13
functioning well, contact information is kept up to date, and DOs are aware of their
responsibilities.

The evaluation uncovered one aspect of emergency preparedness and Volunteer safety and
security that requires management attention.

The information recorded in some site locator forms was not sufficient to locate the
Volunteer’s residence.

Site locator forms (SLFs) contain information about the Volunteer’s site, including
communication and logistical information that could be needed in an emergency situation. As
part of the post’s emergency communication system, each Volunteer in Ecuador is required to
complete a SLF that forms part of the post’s emergency communication system. According to
Peace Corps safety and security standard operating procedures, the SSC should coordinate with
appropriate staff to ensure that SLFs are reviewed during site visits and a system is in place for
the review and improvement of maps and directions to Volunteer residences.

During the fieldwork we used the information contained in SLFs and in the Volunteer
Information Database Application (VIDA) to locate Volunteers. The maps included in the SLF
were adequate to locate the general vicinity of the Volunteer’s residence. However, some SLF
maps and narrative descriptions lacked sufficient descriptive details, such as the color of the
Volunteer’s house, location along a block of houses, or the street number, all of which would
help to more quickly identify the Volunteer’s exact residence. Volunteers may be exposed to
additional risks during an emergency situation if the information in SLF and VIDA is not
sufficient to quickly locate a Volunteer’s residence.

               We recommend:

                   6. That the safety and security coordinator ensure that site
                      locator forms are reviewed during site visits and a
                      system is in place to review and improve maps and
                      narrative descriptions of Volunteer residences.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which the
post’s resources and management practices are adequate for effective post operations. To address
this question, we assess a number of factors, including staffing; staff development; office work
environment; collection and reporting of performance data; and the post’s strategic planning and
budgeting process.

We found that post maintains productive and regular communication with headquarters offices
and with the U.S. Embassy. The U.S. ambassador was well informed regarding projects and
periodically visits Volunteers in the field to gain a first-hand perspective on Volunteer
accomplishments. It is notable that program staff and the country director are regularly turned to



Final Program Evaluation Report: Peace Corps/Ecuador                                              14
for mentoring other region staff, sharing best practices, or assisting with agency initiatives and
pilot programs, including the agency’s same-sex married couple initiative. For the latter, the
post played an integral leadership role in formulating policies and procedures for this program.
The same-sex married couple we interviewed during our visit was satisfied with and appreciative
of the post’s pre-placement planning and support, and reported that they were serving safely and
productively.

In reviewing the staff performance appraisal process, staff development, strategic planning and
budgeting, and performance reporting processes, we found no significant areas of concern that
would necessitate action by the post. However, during the latter half of calendar year 2013, the
CD, DPT and director of management operations all transitioned to other posts or ended staff
service. The region has indicated that it is aware of the need to monitor and direct any necessary
support to the post during this period of transition so that this high functioning post continues to
provide the same level of training, program management, and support to Volunteers as in the
past. We encourage the region to stay abreast of any support needs the post may have during this
transition period.

The evaluation uncovered some areas that require management attention. The remainder of this
section provides more information about these topics.

The CD had not reviewed the MOU between Peace Corps and the Department of State with the
RSO.

As required in MS 270.3.2.4 the CD is “responsible for maintaining regular contact with the U.S.
Embassy on security concerns.” Establishing a clear understanding of the range of RSO and
embassy services available to the post when a crime or emergency situation occurs can be critical
to the timeliness and response to such an event. On May 11, 2012 the Peace Corps and the
Department of State, Bureau of Diplomatic Security (DOS/DS) signed an MOU that established:

              Physical, technical and procedural support by DS for the security of Peace Corps
               operations abroad;
              DS support in responding to crimes against Peace Corps Volunteers;
              Personnel security investigations by DS of Peace Corps staff;
              Training services provided by DS to Peace Corps staff and Volunteers; and
              Funding and reimbursement for services provided to the Peace Corps by DS.

Without clear awareness by all parties of roles, responsibilities, and resources, there is a concern
that coordination and support problems between the U.S. Embassy and the Peace Corps may
develop, putting Volunteers or staff at risk.

               We recommend:

                   7. That the country director review with the embassy’s
                      regional security coordinator the memorandum of
                      understanding between the Peace Corps and the
                      Department of State and ensure that it is on file and
                      accessible.



Final Program Evaluation Report: Peace Corps/Ecuador                                              15
The VAC was raising funds and administering a small grant program in violation of Peace
Corps policy.

MS 721 establishes that only certain Peace Corps offices and positions are allowed to accept
monetary donations. Additionally, MS 720 establishes that “PCVs are not authorized to accept
donations on behalf of the Peace Corps.”

We found that the VAC was selling calendars and t-shirts to fund a small grants program
intended for small community projects. The VAC reviewed Volunteer requests and approved
certain projects to receive small grants of up to $100. The funds were managed entirely by the
VAC outside the Peace Corps’ financial systems and were stored and disbursed from one of the
VAC member’s personal bank account. In the past year the VAC had funded less than ten
projects and shared its budget and project information with the CD. The CD had previously
ended a much larger funded scholarship program that was also organized by the VAC, and
realized that this small grants program may not be an appropriate VAC activity. However, at the
time of our fieldwork the CD had not taken action to end VAC fundraising activity or close this
account.

When Volunteers are self-administering all aspects of a small grant program, the funded
community projects may not be sufficiently initiated, designed, or implemented by the local
community, which may affect the sustainability of the project. Additionally, Volunteers who
fundraise and disburse funds outside of Peace Corps’ financial systems may be exposed to
additional risks, including personal liability, if funds are misused or embezzled.

              We recommend:

                  8. That the country director in coordination with the
                     Office of Gifts and Grants Management bring an
                     orderly closure to the Volunteer Advisory Committee’s
                     small grant program.




Final Program Evaluation Report: Peace Corps/Ecuador                                           16
                          LIST OF RECOMMENDATIONS
WE RECOMMEND:

1. That the post develop and maintain Project Advisory Committees for each of its
projects.

2. That the post modify its site development process to include any additional
community members the Volunteer is expected to work with and, where
appropriate, include these individuals in training and conferences.
        
3. That the post increase the number of language hours provided during pre-
service training and review the teaching methodology to address regional
language differences and the needs of advanced Spanish speakers.
        
4. That the country director, training manager, and programming staff members
develop a strategy and plan to improve business technical training and seek
headquarters technical support as necessary.
        
5. That the country director clearly define the role of the program managers
during training events and develop a plan for pre-service training planning and
communication by programming and training staff.
        
6. That the safety and security coordinator ensure that site locator forms are
reviewed during site visits and a system is in place to review and improve maps
and narrative descriptions of Volunteer residences.
        
7. That the country director review with the embassy’s regional security
coordinator the memorandum of understanding between the Peace Corps and the
Department of State and ensure that it is on file and accessible.

8. That the country director in coordination with the Office of Gifts and Grants
Management bring an orderly closure to the Volunteer Advisory Committee’s
small grant program.




Final Program Evaluation Report: Peace Corps/Ecuador                                17
       APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
In 1989, the Peace Corps OIG was established under the Inspector General Act of 1978 and is an
independent entity within the Peace Corps. The purpose of OIG is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency in
government. The Inspector General (IG) is under the general supervision of the Peace Corps
Director and reports both to the Director and Congress.

The Evaluation Unit provides senior management with independent evaluations of all
management and operations of the Peace Corps, including overseas posts and domestic offices.
OIG evaluators identify best practices and recommend program improvements to comply with
Peace Corps policies.

The Evaluation Unit announced its intent to conduct an evaluation of PC/Ecuador on May 24,
2013. We used the following researchable questions to guide our work:

      To what extent has post developed and implemented programs to increase host country
       communities’ capacity?
      Does training prepare Volunteers for Peace Corps service?
      Has the post provided adequate support and oversight to Volunteers?
      Are post resources and management practices adequate for effective post operations?

The evaluators conducted the preliminary research portion of the evaluation from May 24 until
departure to the post for fieldwork on July 13, 2013. This research included review of agency
documents provided by headquarters and post staff and interviews with the Inter-America and
Pacific Region, Office of Programming and Training, Office of Health Services, Office of Global
Health/HIV, and the Office of Safety and Security.

In-country fieldwork was conducted by the assistant inspector general for evaluations and the
evaluator from July 15 to August 2, 2013. Fieldwork included interviews with post senior staff
responsible for programming, training, safety and security, administrative support and medical
care; interviews with the U.S. ambassador, deputy chief of mission and the deputy RSO and with
ministry of education officials. In addition, we interviewed a stratified judgmental sample of 32
Volunteers (20 percent of Volunteers serving at the time of our visit) based on their length of
service, site location, project focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections, issued
by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). The evidence,
findings, and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.




Final Program Evaluation Report: Peace Corps/Ecuador                                           18
                  APPENDIX B: INTERVIEWS CONDUCTED
As part of this post evaluation, interviews were conducted with: 32 Volunteers; 14 in-country
staff members; 11 staff members at Peace Corps headquarters; the Peace Corps safety and
security officer stationed in San Salvador, El Salvador; the U.S. ambassador, the deputy chief of
mission, the deputy RSO at the U.S. Embassy in Quito, Ecuador; and with host government
ministry officials in Ecuador.

Volunteer interviews were conducted using a standardized interview questionnaire, and
Volunteers were asked to rate many items on a five-point scale (1 = not effective, 3 = average
effective, 5 = very effective). For the purposes of the data analysis, Volunteer ratings of “4” and
“5” are considered favorable. The analysis of these ratings provided a quantitative supplement to
Volunteers’ interview responses, which were also analyzed. In addition, 30 out of 32 Volunteer
interviews occurred at the Volunteers’ homes, which were inspected using post-defined site
selection criteria. The period of review for a post evaluation is one full Volunteer cycle (typically
27 months).

The following table provides demographic information that represents the entire Volunteer
population in Ecuador; the Volunteer sample was selected to reflect these demographics.

                              Table 5: Volunteer Demographic Data
                                                                    Percentage of
                                Project
                                                                     Volunteers
            Community Health                                             20
            Natural Resource Conservation                                32
            Youth and Families                                           19
            Teaching English as a Foreign Language                       34
                                                                    Percentage of
            Gender
                                                                     Volunteers
            Female                                                       72
            Male                                                         33
                                                                    Percentage of
            Age
                                                                     Volunteers
                            25 or younger                                17
            26-29                                                        10
            30-49                                                         5
            50 and over                                                   1
           Source: VIDA.
           Note: Percentages may not total 100 percent due to rounding.




Final Program Evaluation Report: Peace Corps/Ecuador                                              19
              Table 6: Interviews Conducted with PC/Ecuador Staff Members
                               Position                          Status     Interviewed
      Country Director                                         USDH              X
      Director of Management Operations                        USDH              X
      Program Manager, Community Health                        PSC               X
      Program Manager, Natural Resource Conservation           PSC               X
      Program Manager, Teaching English as a Second Language   PSC               X
      Program Manager, Youth and Family                        PSC               X
      Medical Officers (3)                                     PSC               X
      Training Manager                                         PSC               X
      Master Trainer                                           PSC               X
      Safety and Security Officer                              PSC               X
      Language and Cross Cultural Coordinator                  PSC               X
      Host Family Coordinator                                  PSC               X
      Director of Program and Training                         Vacant
      Program and Training Assistants ( 4)                     PSC
      Executive Assistant                                      PSC
      Safety And Security Assistant                            PSC
      Medical Assistant                                        PSC
      Financial Assistant                                      FSN
      Cashier                                                  FSN
      Administrative Assistant- Financial Matters              PSC
      IT Specialist                                            PSC
      General Service Manager                                  PSC
      General Services Assistant                               PSC
      Receptionist                                             PSC
      Records Manager                                          PSC
      Messenger                                                PSC
      Administrative Assistant - Training                      PSC
      Janitors (4)                                             PSC
      Mechanic                                                 PSC

Additional interviews were conducted during the preliminary research phase of the evaluation,
in-country fieldwork and follow-up work upon return to Peace Corps headquarters as necessary.

             Table 7: Interviews Conducted with PC/Headquarters (HQ) Staff,
                     U.S. Embassy Officials and Key Ministry Officials
                             Position                        Organization/Location
         Acting Regional Director                         Inter-America and Pacific
                                                          Region (IAP), HQ
         Chief of Operations                              IAP, HQ
         Acting Chief Administrative Officer              IAP, HQ
         Chief of Programming and Training                IAP, HQ
         Country Desk Officer                             IAP, HQ
         Regional Security Specialist                     IAP, HQ
         Education Program and Training Specialist        Office of Programming and
                                                          Training ( OPATS) , HQ
         Health Specialist                                OPATS, HQ


Final Program Evaluation Report: Peace Corps/Ecuador                                        20
         Nutrition and Food Security Specialist        OPATS, HQ
         Natural Resource Management Specialist        OPATS, HQ
         Program Specialist                            Office of Global Health/HIV,
                                                       HQ
         Safety and Security Specialist                Office of Safety and Security,
                                                       San Salvador, El Salvador
         U.S. Ambassador to Ecuador                    Department of State, Quito
         Deputy Chief of Mission                       Department of State, Quito
         Deputy Regional Security Officer              Department of State, Quito
                                                       Ecuadorian Ministry of
         English Language Project Manager
                                                       Education, Quito




Final Program Evaluation Report: Peace Corps/Ecuador                                    21
                     APPENDIX C: LIST OF ACRONYMS

   CD                        Country Director
   CH                        Community Health
   DO                        Duty Officer
   DPT                       Director of Programming and training
   DOS/DS                    Department of State, Diplomatic Security
   EAP                       Emergency Action Plan
   FITU                      Focus In/Train Up
   IAP                       Inter-America and the Pacific
   IST                       In-Service Training
   MOU                       Memorandum of Understanding
   MS                        Manual Section
   NRC                       Natural Resource Conservation
   OIG                       Office of Inspector General
   OPATS                     Overseas Training and Program Support
   PAC                       Project Advisory Committees
   PCMO                      Peace Corps Medical Officer
   PCV                       Peace Corps Volunteer
   PCVL                      Peace Corps Volunteer Leader
   PDM                       Program Design and Management
   PM                        Program Manager
   PSN                       Peer Support Network
   PST                       Pre-Service Training
   PTS                       Programming and Training Specialist
   RSO                       Regional Security Officer
   SLF                       Site Locator Form
   SSC                       Safety and Security Coordinator
   TEFL                      Teaching English as a Foreign Language
   VAC                       Volunteer Advisory Committee
   VIDA                      Volunteer Information Database Application
   YF                        Youth and Families




Final Program Evaluation Report: Peace Corps/Ecuador                      22
   APPENDIX D: AGENCY’S RESPONSE TO THE PRELIMINARY
                                         REPORT




Final Program Evaluation Report: Peace Corps/Ecuador   23
The Region will continue to work with Post and the departments identified in the Preliminary Report
to ensure closure of these recommendations by the dates included within for outstanding
recommendations.


Recommendation 1

That the post develop and maintain Project Advisory Committees for each of its projects.


        Response: Concur

        Documents to be submitted:
        Meeting agenda and membership list for each of the four projects to be submitted by September
        30, 2014.

        Status and Timeline for Completion:
        To be completed by September 30, 2014
        Post will establish PACs and will complete an annual meeting for each Program Area
        (Community Health, Natural Resources Conservation, TEFL, Youth & Families) before
        September 30, 2014. Agenda development and membership identification and cultivation are
        already in progress.

Recommendation 2

That the post modify its site development process to identify additional community members the
Volunteer is expected to work with and, where appropriate, include these individuals in training
and conferences.



        Response: Do Not Concur
        Post believes it has sufficiently robust site development practices in place to address the intent of
        the recommendation. Post provides Volunteers with a list of community members (with contact
        information) with whom Volunteers will work, as well as contact information of other relevant
        community members from the Volunteer Request Form (see attached). The Site Development
        Form (see attached) also includes a list with contact information of additional community
        members with whom volunteers might work. The congratulations letter, which tells Trainees their
        site assignments (see attached), given to Trainees upon site assignment also includes this
        information. All of these documents are provided to the Trainees prior to their site visits during
        PST. Volunteers are encouraged to work with not only their formal counterpart and the
        community members already identified by PC/Ecuador staff, but also to identify and cultivate
        community partners throughout their service. The Region and Post both believe strongly in
        Volunteer ownership of the development of community relationships as it is essential in all
        aspects of accomplishing the mission of Peace Corps.
        Region and post agree that appropriate community partners need to be at training events.
        Constant change in host organization personnel, shifting community dynamics and personal
        initiative all play a role in determining the most appropriate counterpart for a volunteer, and staff

                                                      2
       cannot predict this. Furthermore, it is incumbent upon Volunteers to become embedded in their
       communities and develop strategies for productive engagement.


       Where there is flexibility, Volunteers bring the partner that they deem most appropriate to a
       training event. For example, during the most recent IST held the week of March 11, 2014, the
       majority of Ecuadorians who were attending were not official counterparts of Volunteers, but
       community members identified by the Volunteers as the most appropriate work partner for the
       training event.

       A new training session for Volunteers called “Understanding My Work Partner” which has been
       delivered in PST as of FY2014 Q2 addresses various issues and challenges related to
       counterparts.


       Documents Submitted:
       Volunteer Request Form
       Site Development Form
       Congratulations Letter
       Session Plan: Understanding my Work Partner


Recommendation 3

That the post increase the number of language hours provided during pre-service training and
review the teaching methodology to address regional language differences and the needs of
advanced Spanish speakers.



       Response: Concur
       The following steps have already been taken to address this issue:
               1. Added another week to PST for FY 2014 to allow for more language hours. Training
                  in FY 2013 had 95 language hours and training in FY 2014 has 123, an increase of 28
                  additional language hours.
               2. Added two full time language facilitators to staff (hired in December 2013) who will
                  provide language training to Volunteers at site while PST is not in session. Added
                  two additional part-year language facilitators for the PST FY 2014 Q3 lowering the
                  ratio of Trainees to facilitators for all groups, including the advanced Spanish
                  speakers.
               3. As of the Q2 FY 2014 input, included immersion days to provide more opportunities
                  for speaking of Spanish at training.
               4. Revised Spanish curriculum for advanced speakers based on feedback received from
                  previous training groups. Two major changes are increasing a focus on Ecuadorian
                  culture through a range of activities including a book club, visits to historical sites,
                  meetings with cultural leaders, etc. Also, increased use of projects and activities
                  outside of the classroom such as visits to schools, interview projects related to the


                                                    3
                   technical area that volunteers will be working, as well as providing mentoring to
                   beginning Spanish students.
               5. Incorporated information from counterparts at site to develop language sessions that
                  incorporate various cultural and language aspects from areas from around the
                  country.
               6. Enhanced exposure to regional language and culture by adding a technical training
                  trip to the coast during PST, thus increasing Volunteer knowledge of the costal usage
                  and accent as compared to the highlands, where the training center is located.

       Documents Submitted:
       COTE PST 110 (FY 2013 Q3)
       COTE PST 111 (FY 2014 Q2)
       Example Session Plan 1: Advanced Spanish Class
       Example Session Plan 2: Advanced Spanish Class
       Example Session Plan 3: Advanced Spanish Class
       Weekly Evaluation Form 2014

       Status and Timeline for Completion:
       Completed: April 9, 2014


Recommendation 4

That the country director, training manager, and programming staff members develop a strategy
and plan to improve business technical training and seek headquarters technical support as
necessary.


       Response: Concur
       Post has already taken several steps to address this issue. Business training in the Natural
       Resources Conservation (NRC) project increased from 9.17 hours in FY 2013 Q2 to 16.75 hours
       in FY 2014 Q2. Post also offered 6 additional hours of optional hands-on training with micro-
       entrepreneurs during the weekend for the FY14 training group. Finally, Post plans 2 more hours
       of business training for subsequent ISTs of Reconnect and Mid-Service.


       To bolster technical expertise in business, Post selected a PCVL for the NRC project who had
       significant business experience to support training in these areas during PST and to help ensure
       the NRC PM and PTS are prepared to facilitate sessions for future training groups. The PCVL
       helped to develop and/or refine six new business training sessions for the NRC project,
       incorporating information from OPATS-developed technical sessions for three of them.

       1. Ecuadorian small business culture

       2. Better business practices: Pricing strategies

       3. Introduction to income generating activities


                                                   4
       4. Introduction to income generating activities II

       5. Selecting an income generating activity: Business Planning

       6. Organizational Management Case Studies (4)



       Documents Submitted:
       COTE PST 111 (Q2 FY2014)
       Session Plan: Better Business Practices
       Session Plan: Ecuadorian Small Business Culture
       Session Plan: Intro to Income Generation I & II
       Session Plan: Organizational Management
       Session Plan: Selecting and Income Generation Activity


       Status and Timeline for Completion:
       Completed: April 9, 2014

Recommendation 5

That the Director of Programming & Training clearly define the role of the program managers
during training events and develop a plan for pre-service training planning and communication by
programming and training staff.



       Response: Concur
       Program Managers (PMs) expressed concern that they had limited interaction with training,
       specifically with PST. Following his arrival at post in November 2013, the Director for
       Programming and Training (DPT) has given clear guidance to PMs and Training Staff on several
       occasions that PMs should be involved with training activities and participate to maximum extent
       possible. This has been implemented for the most recent PST from January – April 2014.

       Also, to improve regular communication, the DPT organized a Program and Training workshop
       in November 2013 to address issues including communication and also held an integrated
       planning meeting in December 2013 with program and training team. In December 2013, post
       established a P&T listserve combining all individuals in P&T team, and regular coordination
       meetings are held twice per month.

       The result has been that Program Managers have a continuous presence and regular engagement
       with trainees. Post expects that newly sworn in Volunteers now have a clear understanding of the
       PM role and leave PST with an established relationship with their PM.


       Documents Submitted:
       Agenda from November and December 2013 meetings and email establishing bi-weekly meetings

       Status and Timeline for Completion:
       Completed: December 31, 2013

                                                   5
Recommendation 6

That the safety and security manager ensure that site locator forms are reviewed during site visits
and a system is in place to review and improve maps and narrative descriptions of Volunteer
residences.


       Response: Concur
       Beginning with Trainees arriving in FY 2014 Q3 post will collect photographs of the front of
       Volunteer houses and upload the images into VIDA. Further, post will work to train Volunteers
       so that they better understand the level of detail required in identifying the Volunteer residence
       once a traveler has arrived at the Volunteer site, for example the house number (where available),
       color, or any other special identifying characteristics.

       The Site Locator Form (SLF) is one of several tools that post uses to locate Volunteers.
       Information from VIDA and phone calls are used in conjunction with the SLF. Post staff will
       continue to use cell phones to call Volunteers and/or community members en route in case they
       are not able to identify the house, and rely on all available tools like GPS coordinates, mapping
       software (when available), etc.

       Currently, Ecuador’s site locator forms contain several elements of a strong site locator form:
       address, GPS coordinates, neighboring landmarks such as schools, hospitals, and government
       buildings, contact information for local neighbors, contact information for nearest volunteers,
       hand-drawn maps, Google maps (where possible), narrative description of how to arrive by car
       and bus, as well as a narrative description of the block. As the cartography skills of Volunteers
       vary tremendously, Volunteers are encouraged to use Google Maps, Wayze, iMaps, and other
       GPS-based sources to provide specific directions and accurate maps for site locator forms.

       In addition to the above response by post to improve Site Locator Forms at the local level, the
       IAP region is working in collaboration with the Office of Safety and Security, the Office of
       Global Operations and the Compliance Office to establish new procedural guidelines for locating
       Volunteers. The Region believes the existing guidance and resources are outdated, and innovative
       strategies can be better leveraged to reach our objectives. A working group has been formed for
       the purpose of drafting new guidance and options for moving forward are being evaluated. The
       working group anticipates that guidance will be rolled out no later than May, 2015.



       Documents Submitted:
       Site Locator Form, PC/Ecuador

       Documents to be submitted:
       Example image of Volunteer house from VIDA


                                                    6
       Status and Timeline for Completion:
       To be completed by August 6, 2014



Recommendation 7

That the country director review with the embassy’s regional security coordinator the
memorandum of understanding between the Peace Corps and the Department of State and ensure
that it is on file and accessible.


       Response: Concur
       The current Regional Security Officer (RSO) is leaving Ecuador in June 2014, and the new RSO
       is scheduled to arrive in July 2014. The current Deputy Chief of Mission (DCM) is also leaving
       this summer. The Country Director will request a meeting with the new DCM and the new RSO
       to occur by August 15, assuming no delay in the arrival of the new RSO or DCM.


       Documents Submitted:
       MOU Copy
       DCM Meeting request

       Status and Timeline for Completion:
       To be completed by August 15, 2014


Recommendation 8

That the country director in coordination with the Office of Gifts and Grants Management bring
an orderly closure to the Volunteer Advisory Committee’s small grant program.


       Response: Concur
       Post has worked with Melissa Becchi, John Hrivnak, at the Office of Gifts and Grants
       Management, and Jean Deal from CFO/FS to plan the transfer of existing VAC grant funds to an
       in-country donation account at post. The VAC has been advised to discontinue fundraising and all
       funds deposited to the in-country donation account will be eligible for unrestricted use as post
       deems appropriate, per the Office of Gifts and Grants Management. In the spirit in which the
       funds have been raised, post will distribute the funds to approved in-country volunteer projects
       that meet Peace Corps Small Grant Program requirements, as recommended by the Volunteer
       Advisory Committee and the Small Grant Committee at post, until all transferred funds have been
       exhausted.

       Post generated Bills of Collection to the VAC in the amount of $2,491.05. The BOCs will then be
       paid to the Post cashier. This process will be completed and documentation will be made
       available by May 15, 2014.


       Documents Submitted:
       VAC financial documents spreadsheet

                                                  7
Emails between PC/Ecuador and Office of Gifts and Grants Management
Bills of collection

Documents to be submitted:
Letter from Post cashier confirming amount collected.

Status and Timeline for Completion:
To be completed by May 15, 2014.




                                           8
                        APPENDIX E: OIG COMMENTS
Management concurred with seven recommendations and did not concur with one
recommendation. In its response, management described actions it is taking or intends to take to
address the issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the agency has taken these actions or that we have
reviewed their effect. Certifying compliance and verifying effectiveness are management’s
responsibilities. However, when we feel it is warranted, we may conduct a follow-up review to
confirm that action has been taken and to evaluate the impact.

All eight recommendations remain open. OIG will review and consider closing recommendations
when the documentation reflected in the agency’s response to the preliminary report is received.




Final Program Evaluation Report: Peace Corps/Ecuador                                           31
    APPENDIX F: PROGRAM EVALUATION COMPLETION AND
                     OIG CONTACT

PROGRAM                       This program evaluation was conducted under the
EVALUATION                    direction of Assistant Inspector General for Evaluations
                              Jim O’Keefe, by Evaluator Danel Trisi. Additional
COMPLETION
                              contributions were made by Program Analyst Kaitlyn
                              Large and Evaluation Apprentice Ben Simasek.




                              Jim O’Keefe
                              Assistant Inspector General for Evaluations


OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please contact Assistant
                              Inspector General for Evaluations Jim O’Keefe at
                              jokeefe@peacecorps.gov or 202.692.2904.




Final Program Evaluation Report: Peace Corps/Ecuador                                        32
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                          Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
